Memorandum from the Office of the Inspector General



February 25, 2010

Phillip L. Reynolds, LP 3A-C
John M. Thomas III, MR 3S 120

REQUEST FOR FINAL ACTION – AUDIT 2009-12292 – TVA'S HEARING
CONSERVATION PROGRAM



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or
taken, have been included in the report. Please notify us within one year from the
date of this memorandum when final action is complete.

If you have any questions, please contact Noel K. Kawado, Senior Auditor, at
(865) 633-7348 or Lisa H. Hammer, Director, Financial and Operational Audits, at
(865) 633-7342. We appreciate the courtesy and cooperation received from your
staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

LHH:JP
Attachment
cc (Attachment):
      Ralph E. Dudley, BR 3B-C
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Scott W. Tiemeyer, BR 3D-C
      OIG File No. 2009-12292
        
 


                                        Audit Report
 
Office
      of the Inspector General                                     

                        To the Vice President, Human Resources
                        Shared Services and Employee Relations, 
                        and to the Executive Vice President,
                        People and Performance                  

 

 

 

 

 

 
TVA'S HEARING
 

CONSERVATION
PROGRAM

 




 

 
 
 

 
Audit Team                                        Audit 2009-12292
Noel K. Kawado                                    February 25, 2010
Melissa L. Conforti
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 3

FINDINGS ......................................................................................................... 4

   PERFORMANCE AND USE OF SOUND LEVEL SURVEYS ...........................5
     Area Noise Monitoring ..................................................................................... 5
     Personal Noise Monitoring ............................................................................... 6
     Integration of Sound Levels ............................................................................. 6
     Use of Noise Monitoring Surveys ......................................................................7

   TVA'S COMPLIANCE WITH ITS HEARING CONSERVATION PROGRAM
   AUDIOGRAM, TRAINING, AND RECORDING REQUIREMENTS .................. 8

   HEARING PROTECTION REQUIREMENTS AND ENFORCEMENT ..............8
     Availability and Adequacy of Hearing Protection ................................................ 9
     Use and Enforcement of Employee Hearing Protection..................................... 11

   ADMINISTRATION AND ENFORCEMENT OF TVA'S HEARING
   CONSERVATION PROGRAM REQUIREMENTS.......................................... 12

   TVA EMPLOYEE CULTURE AND OTHER FACTORS THAT HAVE LED TO
   THE FILING OF HEARING LOSS CLAIMS ....................................................12

CONCLUSION AND RECOMMENDATIONS ......................................... 13

MANAGEMENT'S COMMENTS AND OUR EVALUATION................. 14


APPENDIX
MEMORANDUM DATED JANUARY 11, 2010, FROM JOHN E. LONG, JR., TO
ROBERT E. MARTIN




Audit 2009-12292
Office of the Inspector General                                                                  Audit Report


EXECUTIVE SUMMARY
Tennessee Valley Authority's (TVA) Hearing Conservation Program (Program)
was established to "prevent employee hearing loss from exposure to high noise
levels," by "reduc[ing] noise levels where feasible and…provid[ing] the means for
protection from noise in areas where the levels remain high." In general, TVA's
Hearing Conservation Program has four major components: (1) the development
and implementation of a noise monitoring (sound level survey) program; (2) the
provision for adequate hearing protection devices and its proper use; (3) the
development and implementation of an audiometric testing program; and
(4) regular training and education.

All employees and former employees who sustain injuries, including hearing loss,
while in the performance of duty are entitled to the benefits of the Federal
Employees' Compensation Act (FECA). FECA provides for the Office of
Workers' Compensation Programs of the U.S. Department of Labor to make all
claim decisions and payment of benefits. Approximately $33.6 million were paid
to TVA claimants (representing 3,734 claims) for hearing losses during the 5-year
period ending September 30, 2008.i During this same 5-year period, there were
1,316 new hearing loss claims filed.

As part of our fiscal year (FY) 2009 audit plan, we reviewed TVA's Hearing
Conservation Program to determine whether: (1) it complies with Occupational
Safety and Health Administration's (OSHA) regulations and (2) TVA
organizations are in compliance with Program guidelines. We also reviewed a
prior Office of the Inspector General (OIG) reportii to determine whether its
recommendations had been implemented.

In summary, we found:

•       TVA's Hearing Conservation Program,iii as written, complies with the
        significant provisions of 29 CFR Part 1910.95, "Occupational Noise
        Exposure," issued by OSHA.

•       Certain TVA sites did not (1) perform and/or use sound level surveys in
        accordance with the Program; (2) adhere to Program hearing protection
        requirements and/or discipline employees when hearing protection was not
        worn in designated areas; (3) ensure Program individuals' annual audiogram




                                                            
i
      Successful claimants may be awarded medical or compensation payments, or a combination of the two.
      In addition, the awarded claim may be paid out as a scheduled award (installment payments over time) or
      as a lump sum amount. Therefore, the total amount paid from fiscal year 2004 through fiscal year 2008
      also includes claims that were filed and decreed upon prior to fiscal year 2004.
ii
      Audit 2003-043P – TVA's Hearing Conservation Program.
iii
      TVA's Hearing Conservation Program is embodied in TVA's Safety Manual as Procedure 310.
Audit 2009-12292                                                                                       Page i
Office of the Inspector General                                                                    Audit Report


       and training requirements were met; and (4) record loggable Standard
       Threshold Shifts (STS)iv on the OSHA 300 log.

We also found TVA's current organizational structure does not allow for
enforcement of the Program by Corporate Health and Safety.

Finally, our review confirmed the existence of an employee culture which
promotes the filing of hearing loss claims. The OIG reported this culture in a
separate report issued in March 2009.v

We provided a draft of this report to TVA's Chief Administrative Officer (CAO) and
Executive Vice President, Administrative Services, and TVA's Senior Vice
President, Corporate Governance & Compliance. TVA's CAO and Executive Vice
President, Administrative Services, responded to the draft (see Appendix) and
generally agreed with our recommendations. TVA's Senior Vice President,
Corporate Governance & Compliance, did not provide a response.




                                                            
iv
     An STS is loggable if the employee's STS is "confirmed." An STS may be "confirmed" through a retest
     audiogram within 30 days of the initial audiogram. However, if a retest is not performed within 30 days,
     the loss is also considered "confirmed." 
v
     Audit 2007-11474 – Review of TVA's Workers' Compensation Program.
Audit 2009-12292                                                                                         Page ii
Office of the Inspector General                                                                  Audit Report


BACKGROUND
Tennessee Valley Authority's (TVA) Hearing Conservation Program (Program)
was established to "prevent employee hearing loss from exposure to high noise
levels," by "reduc[ing] noise levels where feasible and…provid[ing] the means for
protection from noise in areas where the levels remain high." In general, TVA's
Hearing Conservation Program has four major components: (1) the development
and implementation of a noise monitoring (sound level survey) program; (2) the
provision for adequate hearing protection devices and its proper use; (3) the
development and implementation of an audiometric testing program; and
(4) regular training and education.

TVA's Hearing Conservation Program requires the implementation of a noise
monitoring program when information indicates that any employee's noise
exposure may equal or exceed an 8-hour time-weighted average of 85 decibels
(dBs). Two types of noise monitoring surveys are performed: area noise
monitoring and personal noise monitoring. Area monitoring measures noise at
one specific area at one point in time. Personal noise monitoring uses a noise
dosimeter attached to a person and stores and integrates sound level
measurements over time, providing an average noise exposure reading for a
given period of time, such as an 8-hour workday. Both types of monitoring are
required to be performed at least every five years, or when a significant change
affecting noise takes place (e.g., new machinery). The Program requires that
affected employees or their representatives be afforded the opportunity to
observe any sound level surveys conducted. In addition, the Hearing
Conservation Program requires that the employees selected for personal noise
monitoring surveys constitute a representative sample of each of the
classification of employees who work in high noise areas1 and that such
employees be notified of the results of the personal noise monitoring. Protection
against the effects of noise exposure is required when the sound level equals or
exceeds 85 dBs. TVA's Hearing Conservation Program also states that hearing
protection should be selected from among those approved by the TVA
Audiologist and as listed on the Master List of Standards (Master List).

Finally, the Hearing Conservation Program requires individuals included in the
Program to receive an audiogram annually after obtaining a baseline audiogram
and that an audiogram also be performed at termination, retirement, or upon
transfer from a location with high noise to a work location with low noise. If an
employee has a Standard Threshold Shift (STS) which is confirmed, TVA is
required to log the STS on the Occupational Safety and Health Administration
(OSHA) 300 log2 ("loggable" STS). Annual training covering TVA's Hearing
Conservation Program is also required for all Program participants.


                                                            
1
    "High noise," as used in this report, refers to areas that have recorded sound measurements equal to or
    greater than 85 dBs.
2
    Also called the "Log of Work-Related Injuries and Illnesses."
Audit 2009-12292                                                                                      Page 1
Office of the Inspector General                                                                Audit Report


All employees and former employees who sustain injuries, including hearing loss,
while in the performance of their duties are entitled to the benefits of the Federal
Employees' Compensation Act (FECA). FECA provides for the Office of
Workers' Compensation Programs of the U.S. Department of Labor to make all
claim decisions and payment of benefits. Approximately $33.6 million were paid
to TVA claimants (representing 3,734 claims) for hearing loss claims during the
5-year period ending September 30, 2008.3




 Figure                                                                                1

During the same 5-year period, there were 1,316 new hearing loss claims filed,
some of which were awarded and paid during this period.

TVA's Chief Administrative Officer (CAO) and Executive Vice President,
Administrative Services, is TVA's Designated Agency Safety and Health Official
(DASHO). The DASHO assists the Board of Directors and senior managers in
the management and administration of TVA's health and safety program. The
General Manager of Health and Safety assists in carrying out the DASHO
responsibilities. The Corporate Safety staff provides oversight of the overall
safety program and assists TVA organizations with Program implementation.
TVA's Hearing Conservation Program is a component of TVA's comprehensive
safety program and must comply with 29 CFR Part 1910.95, "Occupational Noise
Exposure," issued by OSHA.

TVA's Hearing Conservation Program is promulgated in TVA's Safety Manual,
Procedure 310 – Hearing Conservation. Corporate Health Services (Health
Services) is responsible for management of the Program, oversight of the
audiometric testing program, approval of hearing protection devices, and
program evaluation. The business units are responsible for noise control

                                                            
3
    Successful claimants may be awarded medical or compensation payments, or a combination of the two.
    In addition, the awarded claim may be paid out as a scheduled award (installment payments over time) or
    as a lump sum amount. Therefore, the total amount paid from fiscal year 2004 through fiscal year 2008
    also includes claims that were filed and decreed upon prior to fiscal year 2004.
Audit 2009-12292                                                                                    Page 2
Office of the Inspector General                                                              Audit Report


engineering, identifying employees to be included in the Program, audiometric
testing, completion of sound level surveys, and enforcement in the use of hearing
protection devices.

In December 2003, the Office of the Inspector General (OIG) issued a report on
TVA's Hearing Conservation Program.4 The report provided management with
recommendations related to hearing protection usage/availability, the
performance of noise monitoring surveys, identification of employees who should
have been included in the Program, and TVA's calculation of STSs.


OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our fiscal year (FY) 2009 audit plan, we reviewed TVA's Hearing
Conservation Program to determine whether: (1) it complies with OSHA
regulations and (2) TVA organizations are in compliance with Program
guidelines. To achieve our objectives, we:

•      Obtained and reviewed TVA's written Hearing Conservation Program and
       OSHA regulation, 29 CFR Part 1910.95, to determine TVA and OSHA
       requirements with respect to hearing conservation.
•      Compared TVA's Hearing Conservation Program, as written, to OSHA
       regulation, 29 CFR Part 1910.95, to determine whether TVA's Program
       contained all the required OSHA elements.
•      Interviewed personnel from Human Resources and the CAO organization to
       obtain information related to TVA's Hearing Conservation Program.
•      Visited judgmentally selected5 sites (Shawnee, Widows Creek, Colbert,
       Kingston, John Sevier, Johnsonville, Cumberland, Paradise, and Allen Fossil
       Plants; Watts Bar, Browns Ferry, and Sequoyah Nuclear Plants; Muscle
       Shoals Power Service Shops; and Watts Bar Heavy Equipment Division
       (HED)) to determine whether (1) appropriate hearing protection was available,
       (2) appropriate and adequate signage was posted in high noise areas, and
       (3) employees were using hearing protection in designated high noise areas.
•      Obtained and reviewed the following for all selected TVA locations to
       determine if TVA organizations were adhering to Program guidelines:
       − Sound level surveys (area and personal monitoring)
       − Industrial hygiene plans




                                                            
4
    Audit 2003-043P – TVA's Hearing Conservation Program.
5
    Sites were selected based on the number of claims filed from FY 2004 through FY 2008 and the number
    of Program participants as of February 28, 2009, whose most recent audiogram exam date was
    January 1, 2008, or later.
Audit 2009-12292                                                                                  Page 3
Office of the Inspector General                                                                  Audit Report


       − Audiometer certifications
       − TVA and mobile clinic6 nurses' Occupational Hearing Conservationist
         certifications
•      Obtained and reviewed documentation for a sample of Program participants
       across all of TVA, as of February 28, 2009, to determine whether (1) annual
       audiometric tests were administered in accordance with the Program and
       (2) Program training requirements were met by the selected participants. Our
       sample was selected from a report provided by TVA's Health Services and
       included individuals whose most recent annual exam date was January 1,
       2008, or greater. We did not independently verify the population.
•      Obtained and reviewed the prior OIG audit report related to hearing
       conservation to determine whether the findings issued in connection with that
       audit have been addressed.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We do not express an
opinion on TVA's internal control structure because this audit was not designed
to identify all material weaknesses in TVA's Hearing Conservation Program. Our
test for compliance with laws and regulations was limited to OSHA regulations as
described earlier in this section. We found that TVA's Hearing Conservation
Program, as written, complies, in all material respects, with OSHA regulations.
However, we did identify certain weaknesses relating to the Program that are
discussed in the Findings and Recommendations sections.


FINDINGS
We compared TVA's Hearing Conservation Program, as written, with OSHA
regulation 29 CFR Part 1910.95 and determined that TVA's Hearing
Conservation Program addresses all significant provisions of that regulation.
However, during our testing, we found that certain TVA sites did not (1) perform
and/or use sound level surveys in accordance with the Hearing Conservation
Program; (2) adhere to Program hearing protection requirements and/or
discipline employees when hearing protection was not worn in designated areas;
(3) ensure Program individuals' annual audiogram and training requirements
were met; and (4) record loggable STSs on the OSHA 300 log.


                                                            
6
    Certain TVA sites utilize the services of the Mobile Health Clinic (MHC) for conducting hearing exams,
    especially if the site has limited/no medical staff and/or large number of employees requiring hearing
    exams. The MHC and all equipment on the MHC is owned and maintained by TVA but staffed and
    operated by Concentra.
Audit 2009-12292                                                                                       Page 4
Office of the Inspector General                                           Audit Report


We also found TVA's current organizational structure does not allow for
enforcement of the Program by Corporate Health and Safety.
Finally, our review confirmed the existence of an employee culture which
promotes the filing of hearing loss claims. The OIG reported this culture in a
separate report issued in March 2009.7

PERFORMANCE AND USE OF SOUND LEVEL SURVEYS
We found that certain TVA sites did not perform area monitoring and personal
noise monitoring surveys in accordance with the Hearing Conservation Program
or utilize such surveys to determine which employees/job titles should be
included in the Program. As noted below (see Administration and Enforcement
of Program Requirements), TVA sites are responsible for completing the sound
level surveys in accordance with the Program.

Area Noise Monitoring

Comprehensive area monitoring reports were not performed in the past five
years by Shawnee, Johnsonville and Paradise Fossil Plants, and Watts Bar HED.
At one of the plants, the Safety Consultant stated there is no noise monitoring
program in place and that the Industrial Hygiene (IH) plan, which documents the
site's IH requirements for the year including the performance of sound level
surveys, does not receive high priority. Another site's Safety Consultant stated
that he was not aware of the 5-year requirement because it was not included in
the IH plan. The third site's Safety Consultant indicated that he was waiting for a
new replacement to be hired before performing the survey. Another site's Safety
Consultant stated a comprehensive area noise monitoring survey was not
performed in the past five years because a personal noise monitoring survey
performed in 2003 on two people showed that those individuals were not
exposed to an 8-hour time-weighted average at or above 85 dBs.

Because of the highly dynamic nature of the operating environment at plants
throughout TVA, the identification of high noise areas subject to Program
protection is critical to help ensure adequate signage and hearing protection is
available in and around high noise areas. Area monitoring surveys can serve as
an effective screening tool to target job titles subject to personal monitoring and
could also be crucial when challenging hearing loss claims to demonstrate that
claimants were not exposed to high noise levels during their TVA employment.




                                                            
7
    Audit 2007-11474 – Review of TVA's Workers' Compensation Program.
Audit 2009-12292                                                               Page 5
Office of the Inspector General                                                               Audit Report


Personal Noise Monitoring

Comprehensive personal noise monitoring surveys were not performed in the
past five years at Widows Creek and Johnsonville Fossil Plants, Watts Bar and
Sequoyah Nuclear Plants, and Watts Bar HED. At three of the plants, we
reviewed, the sites' Safety Consultant had been at the site for less than a year
and did not know whether such a survey had been performed or needed to be
performed. Another Safety Consultant stated that personal noise monitoring
surveys were components of the Industrial Hygiene plan, which does not get high
priority.

In addition, seven sites (Shawnee, Colbert, John Sevier, Cumberland and Allen
Fossil Plants, Muscle Shoals Power Service Shops, and Browns Ferry Nuclear
Plant) that performed comprehensive personal noise surveys in the past five
years did not maintain documentation supporting the rationale for employees
selected for personal noise monitoring. Therefore, at these seven sites, we were
unable to determine whether the sampled employees constituted a
representative sample. TVA's Hearing Conservation Program states that
personal noise monitoring should be performed "for a representative sample of
each of the classification of employees that work in one or more areas where the
sound level equal or exceeds 85 dBA"8 and should also include "10% of
employees in classification groups that are not normally in areas exceeding
85 dBA, but may infrequently work in or travel through these high noise areas."
These two issues are similar to a finding contained in Audit 2003-043P which
stated, "TVA could not provide personal noise sampling results for five of the nine
sites visited and the personal noise sampling for two other sites was not
representative of the workforce."

Finally, the Safety Consultant at one site stated that the results of the personal
noise monitoring survey were not provided to all the sampled employees
because of the difficulty in contacting employees, and another site's Safety
Consultant indicated that employees were not notified that sound level surveys
would be taking place.

Due to the deficiencies in personal noise sampling, TVA may not have identified
all job duties which are exposed to high noise areas or have sufficient
documentation which could be used to validate or challenge hearing loss claims.

Integration of Sound Levels

Audit 2003-043P stated, "TVA does not have valid sound level survey information
for identifying high noise levels at some plants." Specifically, TVA's Hearing
Conservation Program states that "all continuous, intermittent and impulsive
sound levels from 80 to 130 decibels should be integrated into the noise
measurements." With respect to area monitoring, we found that only one site's
area noise monitoring survey documented the sound levels that were integrated
                                                            
8
    Decibels when measured on the A scale of a standard sound level meter at slow response.
Audit 2009-12292                                                                                   Page 6
Office of the Inspector General                                                                 Audit Report


into the noise measurements that was consistent with the requirements of the
Program. For personal noise monitoring, we found that five sites documented
the sound levels that were integrated into the noise measurements (in
accordance with the Program) in their personal noise monitoring sound level
survey results. At the remaining sites that performed area and/or personal noise
monitoring surveys, we were unable to determine whether the appropriate sound
levels were integrated into the noise measurements, based on our review of the
area monitoring and/or personal noise monitoring surveys that were provided.

Use of Noise Monitoring Surveys

At Kingston, John Sevier, and Johnsonville, the site's Safety Consultant stated
that all the site's employees were included in the Program, including
administrative personnel and individuals who are not normally exposed to high
noise levels, based on site management directives. Three sites (Muscle Shoals,
Watts Bar Nuclear, and Browns Ferry Nuclear) stated that site personnel are
included in the Program by Corporate Human Resources, based on the
employee's job title, without consideration of the results of the site's sound level
surveys. The Safety Consultant at Colbert stated that individuals can be included
in the Program at the site's direction or automatically through Corporate Human
Resources. In addition, our review of a listing9 of individuals included in the
Hearing Conservation Program provided by TVA's Health Services included job
titles that may not need to be in the Program, such as (with quantities in
parentheses): Occupational Health Nurse (4); Manager, Employee Concerns (1);
Financial Representative (1); Financial Consultant (5); and Human Resources
Associate (1).

While the Hearing Conservation Program does not specifically exclude certain
job titles, according to Health Services the intent of the Program is to protect
employees who are normally exposed to high noise levels during their workday.
Furthermore, according to TVA's Hearing Conservation Program, noise
monitoring surveys should be used to identify employees for inclusion in the
Program. Inclusion of employees in the Program who are not normally exposed
to high noise levels could result in unnecessary costs to administer the Program
to those employees, including costs to administer audiograms and training.




                                                            
9
    This listing was generated from MEDICS, and we reviewed the job titles of individuals whose most recent
    annual audiogram was performed on or after January 1, 2008.
Audit 2009-12292                                                                                     Page 7
Office of the Inspector General                                                                     Audit Report


TVA'S COMPLIANCE WITH ITS HEARING CONSERVATION
PROGRAM AUDIOGRAM, TRAINING, AND RECORDING
REQUIREMENTS
We selected a random sample of 59 Program participants included in the Medical
Evaluation Data and Imaging System (MEDICS) as of February 28, 200910 to test
relevant provisions of TVA's Hearing Conservation Program. Based on the
documentation reviewed in connection with this sample, we found:

•      Annual audiograms had not been timely performed in the past three years for
       4611 of the 59 individuals.
•      Loggable hearing losses were not documented on the OSHA 300 log for 3 of
       the 59 individuals.
•      The Hearing Conservation Program annual training was not performed for
       12 of the 59 individuals.

In addition, based on discussions with the site nurse, we noted that four sites did
not perform transfer audiograms12 in accordance with the Program. Specifically,
one site only performed transfer audiograms when the nurse was made aware an
employee transferred to another facility, one site performed transfer audiograms
only when requested, and two sites did not perform any transfer audiograms.

Also, we compared the number of recorded hearing losses on the OSHA 300 log
to the audiogram results in HearTrak and identified additional loggable hearing
losses that were not documented on the OSHA 300 log. Subsequently, Health
and Safety personnel indicated they were recording 96 STSs as a result of our
review.

HEARING PROTECTION REQUIREMENTS AND ENFORCEMENT
TVA had hearing protection available at certain sites that were not included on
the Master List, and hearing protection available at certain sites (even when worn
with earmuffs) did not reduce the highest documented noise levels at the plant to
below 85 dBs, based on the most recent area noise or personal monitoring
survey. We also observed several individuals without hearing protection in
designated areas and found two sites that did not enforce hearing protection in

                                                            
10
   We selected our sample based on a listing of Program participants listed in MEDICS as of February 28,
   2009. MEDICS is a Windows-based application for the collection of administrative medical data along
   with images of medical records. Because the listing we were provided could have included individuals
   who were no longer in the Program as of that date, we selected our sample from a population of
   individuals in the listing whose most recent annual audiogram exam date was January 1, 2008, or later.
11
   We compared the job titles for each of the 46 individuals to TVA's Hearing Conservation Program Web
   site (which includes a listing of job titles that should be included in the Program) and found that 38 had job
   titles that were included on that listing. Eight individuals had job titles that were not on the Program job
   title listing, one of which worked at a fossil plant that included everyone in the Program.
12
   TVA's Program requires the performance of an audiogram when an employee transfers from a location
   with high noise to a location with low noise.
Audit 2009-12292                                                                                          Page 8
Office of the Inspector General                                                                  Audit Report


areas designated with signs requiring hearing protection, if the area was not
currently in operation. In addition, TVA does not have a disciplinary policy for
employees who are working in high noise areas without hearing protection.

Availability and Adequacy of Hearing Protection

As previously stated, TVA's Hearing Conservation Program requires that hearing
protection should be selected from among those approved by the TVA
Audiologist and as listed on TVA's Master List. However, we found 12 types of
hearing protection that were available for use at TVA sites that were not included
on the Master List. Thirteen of the fourteen sites visited had at least one type of
hearing protection available for use that was not on the Master List. While we
were not provided with written evidence that the hearing protection on the Master
List had been approved, the TVA Audiologist stated that all hearing protection
included on that list appeared satisfactory.

In addition, at 13 of the 14 sites visited (see Figure 2), using double hearing
protection (i.e., earplugs and earmuffs) with the lowest rated13 hearing protection
available at the sites did not reduce the highest documented noise level to below
85 dBs. At 8 of the 14 sites, using double hearing protection with the highest
rated hearing protection available at the sites did not reduce the highest
documented noise level to below 85 dBs. For example, at Cumberland Fossil
Plant, the highest noise level documented in the most recent area monitoring
survey was 107 dBs. The highest-rated hearing protection available had a
manufacturer Noise Reduction Rating (NRR) of 33. Earmuffs provide an
additional decrease in noise levels of 5 dBs. By using the calculation as
recommended by OSHA for double hearing protection, the noise level in this
particular area at Cumberland would be reduced to 89 dBs, still more than the
85 dBs as prescribed in the Program.

We also found that several of the Safety Consultants we interviewed were not
aware of the OSHA-recommended calculation for the noise attenuation
(reduction) provided by hearing protection (see footnote 18 for calculation).
Three of the Safety Consultants believed that the reduction afforded by earplugs
is calculated as the manufacturer's NRR less 7. One Safety Consultant stated
that the reduction is equal to the manufacturer's stated NRR. Another Safety
Consultant calculated the reduction as the manufacturer's NRR divided by 2.
Finally, one Safety Consultant referred us to another Safety Consultant for the
noise reduction calculation.



                                                            
13
     Manufacturers of hearing protection provide information about the noise reducing capability of a hearing
     protector as a Noise Reduction Rating (NRR) number. The NRR ratings are based on noise reduction
     obtained in laboratory conditions. However, according to OSHA, their own experience and the published
     scientific literature have shown that laboratory-obtained real ear attenuation for HPDs can seldom be
     achieved in the workplace, and OSHA recommends applying a 50 percent correction factor when
     estimating field attenuation, hence the calculation is Estimated Exposure (dBA) = Time Weighted Average
     (dBA) - [(NRR - 7) x 50%].
Audit 2009-12292                                                                                      Page 9
Office of the Inspector General                                                             Audit Report


                                                            Noise        Noise
                                                          Reduction    Reduction   Net dB      Net dB
                     Highest dB
                                                             With         With      With        With
                    Documented,
                                   Lowest      Highest     Double       Double     Double      Double
                     Based on
                                    NRR         NRR       Protection   Protection Protection Protection
  TVA Location      Most Recent
                                  Earplugs    Earplugs      Using        Using      Using       Using
                        Area
                                  Available   Available    Lowest       Highest    Lowest      Highest
                     Monitoring
                                                             NRR          NRR       NRR         NRR
                       Survey                                                              14
                                                          Earplugs     Earplugs Earplugs      Earplugs15
                                                                12
                                                            (dB)         (dB)13
 Shawnee Fossil        107.8         25          33          14.0         18.0      93.8        89.8
 Widows Creek
                       105.0 25                  33         14.0         18.0        91.0       87.0
 Fossil
 Muscle Shoals
                       103.5 25                  33         14.0         18.0        89.5       85.5
 Fossil
 Colbert Fossil        106.3         28          33         15.5         18.0        90.8       88.3
 Kingston Fossil       104.4         28          33         15.5         18.0        88.9       86.4
 John Sevier
                       102.5 25                  33         14.0         18.0        88.5       84.5
 Fossil
 Johnsonville
                       102.4 25                  33         14.0         18.0        88.4       84.4
 Fossil
 Cumberland
                       107.0 25                  33         14.0         18.0        93.0       89.0
 Fossil
 Paradise Fossil       104.6         25          33         14.0         18.0        90.6       86.6
 Allen Fossil          115.7         27          33         15.0         18.0       100.7       97.7
 Watts Bar
                       101.1 25                  33         14.0         18.0        87.1       83.1
 Nuclear
 Watts Bar
      16
 HED 83.7                            28          30         15.5         16.5        68.2       67.2
 Browns Ferry
 Nuclear 101.0                       25          32         14.0         17.5        87.0       83.5
 Sequoyah
 Nuclear 100.0                       28          33         15.5         18.0        84.5       82.0
                                                                                             Figure 2

TVA's Health Services personnel acknowledged that several sites have locations
that have noise levels that are over 85 dBs (even after considering the use of
double hearing protection). However, according to TVA's Health Services
personnel, site employees are not normally exposed to such noise for eight
hours, and thus higher NRR hearing protection devices are not necessary.
TVA's Hearing Conservation Program states that "[h]earing protectors must
attenuate employee exposure at least to an 8-hour time-weighted average of
85 decibels or below."

As noted above, several TVA sites did not perform comprehensive area and/or
personal noise monitoring surveys in the past five years and/or did not
adequately document the rationale for selecting individuals included in the
personal monitoring surveys performed. As such, at those sites, we were unable
to determine whether certain individuals could have been exposed to noise levels
above an 8-hour time-weighted average of 85 dBs (with double hearing
protection). Until such surveys are completed to verify the actual noise
exposures, we believe that TVA should provide adequate hearing protection to
employees, assuming employees can be exposed to the highest documented
noise levels for eight hours or more.

Audit 2009-12292                                                                                Page 10
Office of the Inspector General                                                             Audit Report


Without adequate hearing protection, affected employees are at greater risk of
sustaining hearing impairments. Furthermore, the lack of adequate hearing
protection could be used against TVA to substantiate hearing loss claims.

Use and Enforcement of Employee Hearing Protection

We observed employees not wearing hearing protection in designated areas at
5 of the 14 plants visited. TVA does not formally discipline employees for not
wearing hearing protection in designated areas. Only 1 of 14 sites has a formal
disciplinary policy in place for not wearing hearing protection in designated areas.
TVA's Program states that "all employees shall comply with the requirements of
the hearing conservation program" and "appropriate disciplinary action shall be
taken whenever requirements of the hearing conservation program are violated."

Payments for approved hearing loss claims constitute a significant cost to TVA.
Where warranted, documentation of employees found without adequate hearing
protection in high noise areas could assist TVA in successfully challenging14
claims. While TVA's Health Services could not definitively state whether such
documentation would assist TVA in successfully challenging hearing loss claims,
a 2001 conference on state workers' compensation laws provided, "although
many workers' compensation laws do not address the question of personal
HPDs, approximately 40% of U.S. states indicated that claims would be denied
or an award penalty assessed if an individual was found to have willfully
disregarded a requirement to wear hearing protection devices."15

We also noted that 2 of the 14 sites visited did not enforce the use of hearing
protection in areas designated as requiring hearing protection if the area was
currently not in operation. The Program states that locations identified as high
noise areas shall be identified with signs and that employees shall use hearing
protection devices as required and as posted at the plants.

Making such an exception to the Program could result in employee confusion as
to when use of hearing protection is actually required. In addition, many of the
individual fossil plant units are immediately adjacent to each other and not
separated by barriers. Therefore, at sites that do not require hearing protection
in nonoperational units, it would be difficult to determine at what point hearing
protection would be required when approaching an operational unit.




                                                            
14
   According to TVA's Health Services, TVA can only challenge (or controvert) a claim once unless new
   information becomes available.
15
   Source: "Update on Workers' Compensation Practices for Hearing Loss," American Industrial Hygiene
   Association Conference and Expo, New Orleans, Louisiana, June 7, 2001.
Audit 2009-12292                                                                                Page 11
Office of the Inspector General                                            Audit Report


ADMINISTRATION AND ENFORCEMENT OF TVA'S HEARING
CONSERVATION PROGRAM REQUIREMENTS

TVA's current organizational structure does not allow for optimal administration
and enforcement of the Hearing Conservation Program. As noted above, we
found that certain TVA sites did not (1) perform and/or use sound level surveys in
accordance with the Program; (2) adhere to Program hearing protection
requirements and/or discipline employees when hearing protection was not worn
in designated areas; (3) ensure Program individuals' annual audiogram and
training requirements were met; and (4) record loggable STSs on the OSHA 300
log.

However, TVA's Health Services is a corporate function and is responsible for the
development and management of the Program and Program evaluation.
Corporate Safety is responsible for communicating the requirements and
changes to the Program to affected TVA sites and also assists sites in
implementing the requirements of the Program. The business units, which fall
under the Chief Operating Officer's (COO) organization, are responsible for noise
control engineering, identifying employees to be included in the Program,
audiometric testing, completion of sound level surveys, and enforcement in the
use of hearing protection devices. Because they report to different organizations,
Program requirements are often difficult to enforce. In addition, on-site
Corporate Safety Consultants, who assist sites in implementing the Hearing
Conservation Program, have no enforcement powers at TVA plants because of
this organizational structure. Consequently, sites that do not meet all the
requirements of the Program do not face any real disciplinary action.

TVA EMPLOYEE CULTURE AND OTHER FACTORS THAT HAVE
LED TO THE FILING OF HEARING LOSS CLAIMS

In March 2009, our office issued Inspections Report 2007-11474, "Review of
TVA's Workers' Compensation Program," where key TVA personnel stated that
an excessive amount of hearing loss claims were being submitted and that
employees view hearing loss awards as "an entitlement and a 'lottery' to be won."
During the current review, we were similarly informed by Safety Consultants and
on-site nurses of a long-existing culture where employees believe they are
entitled to a hearing loss award at the end of their TVA career, without regard to
whether the employee believed such loss was work-related, nonwork-related, or
due to the natural aging process. According to these contacts, this culture,
coupled with union practices, has led to a number of hearing loss claim filings
and payments over the years.

While the close-knit, almost familial, structure present at most, if not all, of the
TVA plants fosters a foundation for teamwork and collaboration, it also allows for
individuals to quickly learn about how coworkers have benefitted from filing



Audit 2009-12292                                                              Page 12
Office of the Inspector General                                            Audit Report


hearing loss claims. According to the site contacts we interviewed, as plant
workers began hearing about other individuals being awarded for hearing losses,
more plant workers began filing such claims upon retirement or termination from
TVA, with the expectation that an award would be paid. Furthermore, the worst
case scenario for most claimants is the denial of a claim.

We also learned from the site contacts that, in the past, union representatives
distributed hearing loss claim forms and assisted TVA employees in completing
such forms at union meetings, which tended to encourage the filing of such
claims.

CONCLUSION AND RECOMMENDATIONS
Payments related to hearing loss claims cost TVA a lot of money—more than
$33 million over the 5-year period ending September 30, 2008. Remediation of
the instances of noncompliance with the Program requirements noted this report
could reduce these costs and reduce the risk of employee hearing losses.
Moreover, certain of these issues, in particular a culture of entitlement to hearing
loss claim benefits, have been raised in previous Office of the Inspector General
reports.

We recommend TVA's DASHO and Vice President, Human Resources,
coordinate with the COO organization to:

•   Ensure sound level (area and personal noise monitoring) surveys are
    performed and documentation is maintained in accordance with TVA's
    Hearing Conservation Program (including documentation of sound levels that
    were integrated into the noise measurements).
•   Ensure employees sampled in conjunction with personal noise monitoring
    surveys are timely notified of the results.
•   Include site employees in the Program in accordance with the intent of the
    Program and in conjunction with current personal noise monitoring surveys.
•   Ensure employees included in the Program (1) have audiograms annually
    and each time the employee transfers from a high noise area workplace to a
    low noise area workplace and (2) complete annual Program training.
•   Record all loggable hearing losses on the OSHA 300 log.
•   Provide approved and adequate hearing protection at all TVA sites assuming
    the worst case scenario of employee noise exposures where comprehensive
    area and/or personal monitoring surveys have not been performed in the past
    five years.
•   Ensure a consistent methodology for calculating the noise attenuation
    afforded by hearing protection devices is utilized across all TVA locations.



Audit 2009-12292                                                              Page 13
Office of the Inspector General                                                                  Audit Report


•      Require employees working in areas designated as high noise wear adequate
       hearing protection in accordance with the Program.
•      Implement a disciplinary policy for employees found not wearing hearing
       protection in designated areas.

In addition, we recommend TVA's Senior Vice President, Corporate Governance
& Compliance, as part of the ongoing cultural change effort at TVA,16 assess and
implement strategies to reduce or eliminate the culture of entitlement related to
hearing loss claim benefits cited previously.

MANAGEMENT'S COMMENTS AND OUR EVALUATION
TVA's CAO and Executive Vice President, Administrative Services, in conjunction
with TVA's Health and Safety organization, responded to our report on
January 11, 2010. Based on their response, the following actions (through
Problem Evaluation Reports) will be taken by TVA consistent with our
recommendations:

•      Confirm that noise monitoring (area and/or personal) surveys have been
       performed at sites identified in the audit report, and assess the extent of this
       condition at sites not visited by the OIG audit team.
•      Include the scheduling of noise monitoring surveys at affected locations by
       incorporating such surveys in the respective FY 2010 IH Sampling Plans.
•      Revise TVA Safety Procedure 310 to address the requirements for sound
       level integration, employee notification instructions, and documentation
       requirements related to personal and area noise monitoring. In addition, TVA
       Safety Procedure 310 will be revised to include the roles and responsibilities
       of managers and supervisors to observe, where necessary, coach, and
       correct employees who violate hearing protection requirements.
•      Determine the worker population that should be included in the Hearing
       Conservation Program, using qualitative and quantitative processes, noise
       survey and monitoring results, and review of job classifications.
•      Ensure performance of required testing and training for employees included in
       the Program by implementing monitoring procedures and notifying plants,
       facilities, and organizations of its roles and responsibilities with respect to the
       Hearing Conservation Program.
•      Log cases on the OSHA 300 log which meet the recordability criteria.
•      Develop policy guidance to include use of administrative controls (work
       rotation/stay times) and a chart for stay times at certain levels of sound


                                                            
16
     At the July 2009 TVA Board meeting, the Board of Directors directed management to develop an
     extensive remediation plan to ensure best practices in areas such as governance and accountability,
     corporate culture, and organizational effectiveness.
Audit 2009-12292                                                                                     Page 14
Office of the Inspector General                                            Audit Report


    intensity levels to ensure employees do not exceed the 85 dBA time-weighted
    average.
•   Review the Master List of Standards for hearing protectors and revise as
    deemed necessary.
•   Develop hearing protection attenuation policy guidance to include OSHA
    methodology for calculating NRR and to address the adequacy of hearing
    protection consistent with the intent of OSHA regulations, including double
    hearing protection.
•   Perform communication efforts through various means which emphasize
    employees' and management's roles and responsibilities related to hearing
    protection usage and disciplinary actions where Hearing Conservation
    Program requirements are violated.

In its response, TVA management stated that the portion of our report related to
the availability and adequacy of hearing protection did not consider the actual
exposure time of employees. In fact, our report recognized the Program
requirement that "[h]earing protectors must attenuate employee exposure at least
to an 8-hour time-weighted average," but found that several locations did not
perform comprehensive area and/or personal monitoring surveys. Therefore, at
those locations, we were unable to determine whether employees at such
locations could have been exposed to noises above the 85 dBA 8-hour time-
weighted average. Our recommendation was intended to ensure that employee
hearing was protected where noise level surveys were inadequate to conclude
that available hearing protection, without other administrative controls, was
sufficient. Notwithstanding, we concur with TVA management's proposed actions
to utilize administrative controls, in conjunction with hearing protection, to reduce
noise exposures to an acceptable level at those locations.

TVA's Senior Vice President, Corporate Governance & Compliance, did not
provide a response to our recommendation related to the assessment and
implementation of strategies to reduce or eliminate the culture of entitlement
related to hearing loss claim benefits.




Audit 2009-12292                                                              Page 15
APPENDIX
Page 1 of 8
APPENDIX
Page 2 of 8
APPENDIX
Page 3 of 8
APPENDIX
Page 4 of 8
APPENDIX
Page 5 of 8
APPENDIX
Page 6 of 8
APPENDIX
Page 7 of 8
APPENDIX
Page 8 of 8
